                SEMIANNUAL
                REPORT

                April 1, 2012 –
                September 30, 2012




November 2012                  OIG-13-01
                                    United States Government Accountability Office




Memorandum
Date:       November 7, 2012

To:         Comptroller General Gene L. Dodaro

From:       Inspector General Frances Garcia


I am submitting this report in accordance with Section 5 of the Government
Accountability Office Act of 2008 (GAO Act).1 The report summarizes the activities of
the Office of the Inspector General (OIG) for the second reporting period of fiscal
year 2012.

The act requires that you transmit the report to Congress within 30 days after
receipt. Your transmittal should also include any comments you consider
appropriate.

I appreciate management’s support and want to thank GAO’s Executive Committee,
managers, and staff for their cooperation during our reviews. The OIG’s team of
dedicated professionals remains committed to helping GAO improve the services it
provides for American taxpayers. The accomplishments reported in this letter are the
direct result of their efforts.


cc: Patricia A. Dalton, Chief Operating Officer, GAO
    Lynn H. Gibson, General Counsel, GAO
    David M. Fisher, Chief Administrative Officer/Chief Financial Officer, GAO
    GAO’s Audit Advisory Committee




1
31 U.S.C. § 705 (2012).



                                                            OIG-13-1 Semiannual Report
                                 INTRODUCTION

THE UNITED STATES GOVERNMENT ACCOUNTABILITY OFFICE
The GAO is the audit, evaluation, and investigative arm of the Congress. It supports
congressional oversight by (1) auditing agency operations to determine whether
federal funds are being spent efficiently and effectively; (2) investigating allegations
of illegal and improper activities; (3) reporting on how well government programs and
policies are meeting their objectives; (4) performing policy analyses and outlining
options for congressional consideration; and (5) issuing legal decisions and
opinions, such as bid protest rulings and reports on agency rules.

THE OFFICE OF INSPECTOR GENERAL
Established as a statutory office by the GAO Act of 2008,2 GAO’s OIG independently
conducts audits, evaluations, and other reviews of GAO programs and operations
and makes recommendations to promote the agency’s economy, efficiency, and
effectiveness. The OIG also investigates allegations of potential fraud, waste,
mismanagement, or other serious problems in GAO’s operations including the
possible violation of any law or regulation.




2
31 U.S.C. § 705 (2012).



Page 2                                                       OIG-13-1 Semiannual Report
         ACTIVITIES OF THE OFFICE OF INSPECTOR GENERAL

AUDITS
During this reporting period, we issued two audit reports. The first was an
assessment of the extent to which GAO had developed the policies and procedures
necessary to ensure that GAO staff appointed as contracting officer representatives
are trained and certified.3 The second report analyzed whether GAO’s Human
Capital Office had established effective controls and oversight mechanisms to
ensure that its recruitment, relocation, and retention incentives were consistent with
GAO policy and the use of these incentives aligned with the agency’s human capital
strategic plan.4 A summary of these reports and GAO actions to address our
recommendations is attached to this memorandum.

In addition, we initiated an audit to assess the extent to which GAO has
implemented an effective process for reviewing and validating security clearance
requirements and are in the process of finalizing our work plan for fiscal year 2013.

INVESTIGATIONS
The OIG’s hotline continues to be our primary source of complaints or information for
identifying suspected fraud and other serious problems, abuses, and deficiencies
relating to the administration of GAO’s programs and operations.5 As shown in table
1, we processed a total of 212 hotline complaints during this 6-month reporting
period. Of those, 18 complaints led to full investigations.




3
 GAO, Office of the Inspector General, Procurement: Actions Needed to Enhance Training and
Certification Requirements for Contracting Officer Representatives, OIG-12-3 (Washington, D.C.:
Apr. 11, 2012).
4
 GAO, Office of the Inspector General, Human Capital: Opportunities Exist to Strengthen Controls
over Recruitment, Relocation, and Retention Incentives, OIG-12-5 (Washington, D.C.:
Aug. 28, 2012).
5
 OIG has a toll-free hotline number that is staffed by a contractor 24 hrs a day, 7 days a week. The
toll-free number is (866) 680-7963.


Page 3                                                                  OIG-13-1 Semiannual Report
Table 1: Summary of OIG Hotline Complaint Activities, April 1, 2012, through September 30, 2012

    Hotline complaints open at the start of the reporting period                                                        22
    New hotline complaints received this reporting period                                                              190
    Total hotline complaints                                                                                           212
    Disposition of hotline complaints received:
    Complaints closed (referred to other GAO offices)                                                                        4
                                                        a
    Complaints closed (referred to FraudNet )                                                                           18
    Complaints closed (insufficient information/no basis)                                                              112
    Complaints closed (no jurisdiction and referred to appropriate agency                                               54
    OIG or other law enforcement officers)
    Complaints closed (converted to full investigations)                                                                18
    Complaints closed (converted to Freedom of Information Act (FOIA)                                                    3
    requests)
    Total hotline complaints open at the end of the reporting period                                                         3
Source: OIG.
a
 FraudNet is a governmentwide hotline operated by GAO staff that receives complaints of fraud, waste, and abuse of federal
funds spent by other federal agencies.


As shown in table 2, we had 22 open investigations during this reporting period. At
the end of the reporting period, 17 investigations remained open, two of which are
joint investigations with other federal law enforcement agencies.

Table 2: Summary of OIG Investigations, April 1, 2012, through September 30, 2012

    Investigations open at the start of the reporting period                                                            6
    New investigations initiated this reporting period                                                                16a
    Total investigations                                                                                               22
    Disposition of investigations received:
    Investigations closed (referred to other GAO offices or closed due                                                  5
    to insufficient information/no basis)
    Total investigations open at the end of the reporting period                                                       17
Source: OIG.
a
Four hotline complaints of similar nature were combined into two investigations.


One investigation performed by our office involved a GAO employee who filed false
claims for reimbursement for official travel. During the course of the investigation,
the employee admitted submitting travel vouchers during a 3-year period that
contained false claims. As a result of our investigative findings, this matter was
referred to the GAO Human Capital Office for consideration of administrative action.
GAO has initiated efforts to recover funds related to these false claims, and the
employee was suspended for a period of 60 days without pay.




Page 4                                                                                 OIG-13-1 Semiannual Report
GAO ACTIONS ON RECOMMENDATIONS MADE IN PRIOR OIG REPORTS
Timely resolution of outstanding audit recommendations continues to be a priority for
both our office and the agency. During the semiannual reporting period, we tracked
the overall status of all reports and recommendations issued by the OIG, and actions
planned and taken by GAO in response to OIG recommendations. GAO completed
or continued actions to respond to 10 recommendations in four previous OIG
reports. For the purposes of this report, a recommendation is considered open when
an action (1) has not been taken but may be taken, (2) is in the planning stage, or
(3) has been taken on only part of the recommendation. In addition, a
recommendation is considered implemented and closed when action has been taken
that essentially meets the recommendation’s intent. Table 3 provides a brief
summary of the recommendations.

Table 3: Agency Actions on Recommendations Made in Prior OIG Reports, April 1, 2012, through
September 30, 2012

                                                               Status of actions planned and
OIG audit and                                                  taken by GAO in response to the
other reports             Recommendation                       recommendation
Information Security:     1-2. Continue efforts to             Recommendations open
Evaluation of GAO’s       implement additional                 GAO plans to implement additional
Information Security      requirements for the agency’s        requirements after a privacy rule
Program and               privacy program.                     and order are finalized.
Practices for Fiscal
Year 2009, OIG-10-3
(Jan. 4, 2010)
Matter for                3. Consider the desirability         Recommendation open
management                and feasibility of expanding         GAO continues efforts to finalize
consideration             oversight of Tiny Findings Inc.      the memorandum of agreement
regarding Tiny            in a manner similar to the           between the agency and its on-site
Findings Inc.             oversight provided by the            childcare facility (Tiny Findings)
(Mar. 24, 2011)           General Services                     regarding its childcare operations.
                          Administration for child-care        GAO’s Tiny Findings Board has
                          facilities in other federal office   also initiated actions to explore
                          buildings.                           obtaining accreditation by the
                                                               National Association for the
                                                               Education of Young Children
                                                               (NAEYC).




Page 5                                                                OIG-13-1 Semiannual Report
                                                         Status of actions planned and
 OIG audit and                                           taken by GAO in response to the
 other reports            Recommendation                 recommendation
 Internal controls        4-6. Improve monitoring of the Recommendations open
 regarding telework,      telework program.              GAO developed and implemented
 official duty station,                                  a telework communications
 and transit benefits                                    strategy to explain and/or remind
 (Jul. 18, 2011)                                         staff of the telework policy and
                                                         available program resources.
                                                         Communication limitations
                                                         between two databases currently
                                                         inhibit progress on an automated
                                                         approach for obtaining and
                                                         analyzing the data needed to
                                                         monitor telework for consistency
                                                         and compliance with approved
                                                         telework agreements.
 Information Security:    7. Establish a comprehensive     Recommendation closed
 Evaluation of GAO’s      governance structure and         GAO has taken action to integrate
 Program and              organization-wide risk           an enterprise risk management
 Practices for Fiscal     management strategy for the      program into its Information
 Year 2011, OIG-12-2      security of GAO’s information    Technology Investment Committee
 (Mar. 30, 2012)          systems.                         governance and oversight
                                                           process.
                          8. Develop and implement         Recommendation closed
                          procedures for capturing data    GAO has updated its procedures
                          that accurately reflect agency   for managing and tracking annual
                          compliance with security         security awareness training and
                          training requirements as of      role based training to accurately
                          the end of each fiscal year.     report training compliance.
                          9. Enhance accountability for,   Recommendation open
                          and management of, GAO’s         GAO continues efforts to establish
                          information security             monitoring procedures that
                          weakness remediation             enhance accountability for, and
                          process.                         management of, GAO’s
                                                           information security weakness
                                                           remediation process.
                          10. Provide senior               Recommendation closed
                          management with adequate         GAO senior management has
                          information to consider and      been briefed on the current ACF
                          prioritize building out the      capabilities and a strategy for
                          capabilities of the agency’s     contingency operations at that site.
                          Alternate Computing Facility
                          (ACF).
Source: OIG.




Page 6                                                             OIG-13-1 Semiannual Report
OTHER ACTIVITIES
In addition to our audit and investigative activities, we have continued our efforts to
strengthen our quality control system by taking actions that respond to
recommendations resulting from our internal inspection and review. For example,
the OIG provided training to its staff on its quality control framework of policies and
procedures related to generally accepted government auditing standards and the
Council of the Inspectors General on Integrity and Efficiency (CIGIE) quality
standards for inspectors general and inspection and evaluations. Further, we
updated our strategic plan, which discusses our vision, mission, goals, and
performance measures that will guide our work for the next 4 years.6 We also
updated our OIG manual for investigations to help ensure compliance with
applicable CIGIE quality standards for investigations, and have initiated efforts to
implement an automated case management system for investigative records and
evidence management.

Further, the OIG received and processed Freedom of Information Act (FOIA)
requests, which we addressed in accordance with procedures set forth in 4 C.F.R.
Part 81. In addition, the OIG recommended that senior GAO executives be advised
to contact the IG whenever a GAO employee is implicated in the findings of GAO
audit or investigative work. The OIG also recommended revisions to GAO’s Forensic
Audits and Investigative Services (FAIS) procedures regarding reporting information
potentially implicating a possible violation of law, rule, or regulation by a GAO
employee.7 GAO agreed with our recommendations and has actions under way to
update its procedures. In September 2012, the OIG Assistant Inspector General for
Investigations briefed GAO management and reiterated that managers are required
to contact the IG whenever a GAO employee is implicated in findings of GAO audit
or investigatory work.

During the reporting period, the OIG was also involved in a number of outreach and
liaison activities, including an integrity awareness briefing to GAO executives and
directors, oversight of the United States Commission on Civil Rights,8 and active
participation in the community of federal inspectors general.




6
 OIG, Strategic Plan: Serving the Congress and the Nation 2013-2017, OIG-12-1SP (Washington,
D.C.: August 2012).
7
 Memorandum, “IG Request for Change in FAIS Procedures,” July 19, 2012, Inspector General
Frances Garcia to the Executive Committee.
8
 In November 2011, Congress designated the GAO IG to hold the position of IG for the United States
Commission on Civil Rights (the Commission) and directed that the personnel of GAO’s OIG be
utilized to perform the duties of the IG for the Commission.


Page 7                                                               OIG-13-1 Semiannual Report
Attachment

               Summary of OIG Reports and GAO Actions
         Reports Issued April 1, 2012, through September 30, 2012

Procurement: Actions Needed to Enhance Training and Certification Requirements
for Contracting Officer Representatives, OIG-12-3 (Washington, D.C.: Apr. 11, 2012)

Findings: Contracting Officer Representatives assist Contracting Officers in the
proper procurement and administration of contracts and play a key role in ensuring
that contractors abide by the contracts. The Office of the Inspector General
assessed the extent to which GAO has developed the policies and programs
necessary to ensure that GAO staff appointed as Contracting Officer
Representatives are trained and certified. Although GAO’s current policy
encourages, but does not require, certification training and continuous learning for
Contracting Officer Representatives, the agency has efforts under way to
expeditiously revise training and certification requirements based on the executive
branch’s risk-based certification program. This risk-based program has varying
requirements for training, experience, and continuous learning for Contracting
Officer Representatives in civilian agencies, depending upon the types of contracts
being managed. To strengthen contract oversight, GAO has plans to require
Contracting Officer Representatives take training this year. In addition, GAO
executives have assigned a senior manager to further expedite the development of
its revised policy. However, GAO lacks a comprehensive plan that includes time
frames, availability of training resources, and a method to track and monitor when
staff complete training. Until the revised program is fully implemented, GAO is at risk
that some Contracting Officer Representatives may not have the right skills and
training to oversee contractors.

Recommendations and GAO actions: This report recommended that the Comptroller
General ensure that GAO develop and implement an action plan that contains
milestones for revising its policy and processes for training and certifying Contracting
Officer Representatives and addresses unresolved issues identified in our report.
GAO concurred and by September 28, 2012, had taken actions that fully addressed
our recommendation.




Page 8                                                       OIG-13-1 Semiannual Report
Human Capital: Opportunities Exist to Strengthen Controls over Recruitment,
Relocation, and Retention Incentives, OIG-12-5 (Washington, D.C.: Aug. 28, 2012)

Findings: GAO policy authorizes the use of recruitment, relocation, and retention
incentives either to encourage individuals to accept a position that would otherwise
be hard to fill or to retain an essential employee with unusually high or unique
qualifications who is likely to leave the agency without a monetary incentive to stay.
For calendar years 2009 through 2011, GAO used this authority for recruitment and
retention purposes and made incentive payments of more than $1.8 million. Our
audit of the internal controls and oversight for the incentive payment award process
identified opportunities to strengthen controls, including the need to maintain
appropriate supporting documentation; provide additional guidance to human capital
staff to ensure proper, timely, and accurate execution and recording of
administrative actions; and provide effective monitoring and oversight. In addition,
we identified an opportunity for GAO to help ensure that incentive payments support
agency recruitment and retention goals by establishing a clear agency-wide strategy
and results-oriented performance measures for these payments.

Recommendations and GAO actions: This report recommended that the Comptroller
General direct the Chief Human Capital Officer to take the following seven actions:
(1) update GAO’s recruitment, relocation, and retention incentive policy contained in
GAO Order 2575.1 to strengthen justification factors for the continuation of retention
incentive payments by requiring a timeline or strategy for eliminating, as appropriate,
the need for future payments, and include a requirement for periodically reporting to
GAO management and executives on the agency’s use of these incentives; (2)
consider development and use of a standard form to aid in documenting incentive-
related actions and maintaining documentation needed to support reconstruction of
actions taken; (3) develop and implement detailed procedures for ensuring
compliance with recruitment and relocation requirements provided in GAO Order
2575.1; (4) revise retention procedures to address any inconsistencies with GAO
Order 2575.1 and to ensure the completeness of the detailed procedures in support
of compliance; (5) establish an integrated process and procedures to identify and
terminate, in a timely manner, recruitment, relocation, or retention incentives based
on the occurrence of conditions for termination as defined by GAO Order 2575.1; (6)
establish a process to ensure that each retention incentive is reviewed at least
annually to determine whether it should be retained, reduced, or terminated, and if it
is to be continued or reduced, to verify that a succession plan or recruitment strategy
is in place, as appropriate, to eliminate the need for the incentive in the future; and
(7) incorporate the use of recruitment, relocation, and retention incentives into
GAO’s strategic human capital planning to specify a plan for their use, the results
GAO expects to achieve, and the measures that will be used to assess their
effectiveness. In addition, to help management monitor and evaluate the
effectiveness of controls related to recruitment, relocation, and retention incentives,
we recommend that the Comptroller General direct the Chief Administrative Officer
to include recruitment, relocation, and retention incentives, as appropriate, in
periodic internal management reviews of internal controls (A-123 reviews) to help
ensure that control activities─such as documentation maintenance and transaction
execution and recording controls─are functioning properly.



Page 9                                                      OIG-13-1 Semiannual Report
GAO concurred with these recommendations. Actions taken in response to the
recommendations are expected to be reported to the OIG within 60 days of the
report issuance date.




(999823)




Page 10                                                  OIG-13-1 Semiannual Report
                      To report fraud, waste, and abuse in GAO’s internal operations, do one of
Reporting Fraud,      the following. (You may do so anonymously.)
Waste, and Abuse in
                         Call toll-free (866) 680-7963 to speak with a hotline specialist,
GAO’s Internal            available 24 hours a day, 7 days a week.
Operations
                         Online at: https://OIG.alertline.com.


                      To obtain copies of OIG reports and testimony, go to GAO’s Web site:
Obtaining Copies of   www.gao.gov/about/workforce/ig.html.
OIG Reports and
Testimony

                      Katherine Siggerud, Managing Director, siggerudk@gao.gov,
Congressional         (202) 512-4400, U.S. Government Accountability Office, 441 G Street
Relations             NW, Room 7125, Washington, DC 20548


                      Chuck Young, Managing Director, youngc1@gao.gov, (202) 512-4800
Public Affairs        U.S. Government Accountability Office, 441 G Street NW, Room 7149,
                      Washington, DC 20548




                      This is a work of the U.S. government and is not subject to copyright protection in the
                      United States. The published product may be reproduced and distributed in its entirety
                      without further permission from GAO. However, because this work may contain
                      copyrighted images or other material, permission from the copyright holder may be
                      necessary if you wish to reproduce this material separately.




                             Please Print on Recycled Paper
